la

IN THE COURT OF APPEALS TENNESSEE
AT NASHVILLE
July 31, 2018
Recreated: FILED
07/31/2018 Clerk of
the Appellate Courts
VICKY LYNN BALLARD v. NOAH THOMAS
BALLARD
Appeal from the General Sessions Court for
Wilson Comity
No. 2016-DV-97 John Thomas Gwin, Judge
No. M2018-01217-COA-R3-CV
This is an appeal from an Amended Final Decree
of Divorce entered on November 15, 2017.
Because the appellant did not file his notice of
appeal within thirty days after entry of the
decree as required by Tenn. R. App. P. 4(a), we
dismiss the appeal.
Tenn. R. App. P. 3 Appeal Right; Appeal
Dismissed
Frank G. Clement Jr., P.J., M.S., Andy D.
Bennett and Richard H. Dinkins, JJ.
Noah Thomas Ballard, Hermitage, TN, pro se.
Abby Rose Rosenfeld, Nashville, TN, for the
appellee, Vicky Lynn Ballard

2a
MEMORNDUM OPINION*
The appellee, Vicky Lynn Ballard, has filed a
motion to dismiss this appeal for failure to file a
timely notice of appeal. Ms. Ballard asserts the
trial court entered a Final Decree of Divorce on
November 2, 2017, and an Amended Final
Decree of Divorce on November 15, 2017. No
post-judgment motions were filed. Under Tenn.
R. App. P. 4(a), a party must file a notice of
appeal with the clerk of this court within thirty
days after
1Tenn. R. Ct. App. 10 states- This Court, with
the concurrence of all judges participating in the
case, may affirm, reverse or modify the actions of
the trial court by memorandum opinion when a
formal opinion would have no precedential value.
When a case is decided by memorandum opinion
it shall be designated "MEMORANDUM
OPIONION," shall not be published, and shall
not be cited or relied on for any reason in any
unrelated case. Entry of the final judgment. The
appellant Noah Thomas Ballard, was thus
required to file his notice of appeal on or before
December 15, 2017. Mr. Ballard did not file his
notice of appeal until July 2, 2018, more than six
months after entry of the Amended Final Decree
of Divorce.

3a
Mr. Ballard lias responded to the motion to
dismiss by sending a series of emails to the clerk
of this court. The Tennessee Rules of Appellate
Procedure do not permit the filing of responses
by email. Nevertheless, the court has reviewed
and finds that Mr. Ballard does not dispute the
material dates set forth in the motion to dismiss
or otherwise demonstrate that his appeal was
timely filed.
The time limit for filing a notice of appeal is
mandatory and jurisdictional. Albert v. Frye, 145
S.W.3d 526, 528 (Tenn.2004); Binkley v.
Medling, 117 S.W.3d 252, 255 (Tenn. 2003). This
court can neither waive nor extend the time
period. Tenn. R. App. P. 2 and 2l)b); Flautt &
Mann v. Council of City ofMemphis, 285 S.W.3d
856, 869 (Tenn. Ct. App. 2008); Jefferson v.
Pneumo Serv. Corp. 699 S.W.2d 181, 184 (Tenn.
Ct. App 1985). The failure to file a timely notice
of appeal deprives this court of jurisdiction to
hear the matter. Flautt & Mann v. Council of
City ofMemphis, 285 S.W.3d at 869.
The appeal is hereby dismissed. The case is
remanded to trial court for further proceedings
consistent with this opinion. Noah Thomas
Ballard is taxed with the costs for which
execution may issue.
PER CURIAM

4a
JURISDICTION
SUPREME COURT - MIDDLE DIVISION
APPELLATE CLERK’S OFFICE - NASHVILLE
100 SUPREME COURT BUILDING 401 7TH
AVENUE NORTH NASHVILLE, TN 37219*1407
(615) 741*2681, Noah Thomas Ballard 636
Weatherbeaten Place Hermitage, TN 37076
Re: M2018 01217-SC-R11-CV - VICKY LYNN
BALLARD V. NOAH T. BALLARD
Notice: Case Dispositional Decision - Trap 11
Denied
Attached to this cover letter, please find the
referenced notice issued in the above case. If you
have any questions, please feel free to call our
office at the number provided.
cc: Noah Thomas Ballard
Abby Rose Rubenfeld
Judge John Thomas Gwin
IN THE SUPREME COURT OF TENNESSEE
AT NASHVILLE VICKY LYNN BALLARD V.
NOAH T. BALLARD
Wilson County General Sessions Court 2016-DV97, No. M2018-01217-SC-R11-CV
Date Printed: 11/15/2018 Notice/Filed Date: H15-2018NOTICE - Case Dispositional - TRAP 11
Denied The Appellate Court Clerk's Office has
entered the above action. James M. Hivner
Clerk of the Appellate Court

5a
PROVISION
5th
Due
No person shall be held to
Process Amendment answer for a capital, or
Clause
otherwise infamous crime,
unless on a presentment or
indictment of a grand jury,
except in cases arising in
the land or naval forces, or
in the militia, when in
actual service in time of
war or public danger; nor
shall any person be subject
for the same offense to be
twice put in jeopardy of life
or limb; nor shall be
compelled in any criminal
case to be a witness against
himself, nor be deprived of
life, liberty, or property,
without due process of law;
nor shall private property
be taken for public use,
without just compensation.

6a
Reliable Mowing & Lawn Services Need A Mow
Customer Satisfaction
615-519-9658, 731-796-0800
Date 1-24-18
Name: Noah Ballard Address 4001 Wellington
Court City Old Hickory State TN Zip 37138 615513-0412 E-mail * ballard.noah@gmail.com
Mowing, Mulching, Leaf Removal, Landscape
Maintance, & Bush Hogging
Sales Person(0R^) Mowing V Landscape
Maintance Mulching Brush Hogging Frequency
Mulching
Description of Services & Cost Estimates
Basic Lawji_Service showing Lawn) (primming)
(^Lgin^XQlean-u^
Estimated Coit
Mulching Red □ Black □ Other
Landscape Maintenance Pruning Shrubs Bed
Maintance Removal or Planting Other Total
Estimate for Landscaping Maintance $50.00
Bush Hogging Acres: Notes Mow as needed SUB
TOTAL $50.00 DISCOUNT TOTAL $50.00
Upon acceptance by the customer, to engage
RELIABLE MOWING AND LAWN SEVICES
TO PERFORM THE SERVICES QUOTED.
THIS DOCUMENT BECOMES RELIABLE
MOWING AND LAWN SERVICES WORK
AGREEMENT TO PERFORM THE SERVICES
QUOTED. ~| THANK YOU

7a
EXHIBIT
# 9
2016-DV-97
Vanguard
Client Services^ 800-662-2739
December 31, 2011, year-to-date statement
view your statements online at vanguard.com
Your statement is now even better
We heard you. We talked to a lot of clients to find
out the best way to present your account
information. Everything you're used to seeing on
your statement is still here, but we have made
account balances more prominent and made it
easier to see where account groupings begin and
end. And the way your information is presented
on your statement is now more closely aligned
with how it's presented on vanguard.com. We
hope you like the changes.
Vanguard P.O. Box 2600 Valley Forge PA 194822600 Noah T Ballard 4001 Wellington Court, Old
Hickory, TN 37138-4657
Page 1 of 6

8a
The Vanguard re-created evidentiarys below
attests to the contrived, deceptive, deliberate,
mockery of Justice; as very near the end of the
trial Abbv turned and faced me, stating: I agree
and concur all of your received monies went into
your joint bank account. Please see: 7, a., b. c.,
23, PG. 5, 30, and responses therafter. At trial,
and even on re-direct examination, he continued
to deny knowledge of the history or value of his
accounts, past or present. Please see: 6,-8, PG. 3,
12. a., b., c., d. and 1,-2, PG. 2, 5., a., b., c.
Including, Abbv’s Deceitful, Decree concurring
Signature!
Vanguard
Traditional IRA Account Vanguard Voyager
Services 800-284*7245
Noah T,. Ballard
Account Overview (Please know: The black
boxes have been added by Noah T. Ballard).
Total Account Value as of March .31, 2105 1
$92,604.11,
Year-to-date income Retirement Statement
Taxable income $0.00
2015
Contributions $0,00
Notable income 0.00________
2015
Distributions
0.00
Total
0.00
Balances and holdings for Vanguard, Beginning
on January 1, 2012, new tax rules on taxable
(nonretirement) mutual fund accounts (excluding
money market funds) require Vanguard to track
cost basis information for shares acquired and
subsequently sold, on or after that date. Unless

i

10a
$16,617.56, Balance onl2/31/2014, $23,090.38,
Balance on 03/31/2015, $23,071.81
Balance onl2/31/2014, $91,135.76, Balance on
03/31/2015. f$92.604.11H-----March 31, 2015, quarterto*date statement
Page 3 of 6
Vanguard
Traditional IRA Account Vanguard Voyager
Services
Noah T,. Ballard
Voyager Services 800*284*
7245
Account Activity for Vanguard Funds Continued
Prime Money Mkt Fund 0030*88052835041
continued
Transaction Beginning balance on 3/31/2015
Share Price $1.00, Total shares owned 0.070,
Value $0.07, Beginning balance on 3/31/2015
Share price $1.00, Ending Balance on 6/30/2015
Share price $1.00, Total shares owned 0.070,
Value $0.70, Windsor Fund Inv, 0022*
88062836041, Contributions $0.00, Distributions
$0.00, Dividends $260.60, Beggining balance on
3/31/2015, Share Price $21.79, Total Shares
Owned $1,336,429, Value $29,120.79, Date
06/19, income dividend .195, Amount $260.60,
Share Price $22.36, Shares Transacted, 11.655,
Total Shares Owned $1,348.084,Ending Balance
on 6*30*2015, Share price $21.84, Total Shares
Owned 1,348.084, Value $29,442.15
Windsor II Fund Inv 0073*88052835041,
Distributions *$11,200.00, Dividends $132.29
Transaction Beginning balance on
3/31/2015,Share Price $37.28, Total shares

11a
owned 618.879, Value $23,071.81, 04/06 Normal
Distribution -$10.080.00,|Please know that:
Wife's Auto Payment was hand written on the
original submitted copy to the TN Supreme
Court, with an arrow pointing to the -$10,080.00
amount; Share price 37.61, Shares transacted 297.793, Total Shares owned 321.086, Federal
withholding -$1,120.00, 06/19 Income dividend
.412, Amount $132.29, Share price $38.01,
Shares Transacted 3.480, Ending Balance on
6/30/2015 Share price $37.25, Total shares
owned 324.566,Value $12,090.08
June 30, 2015, quarter-to-date statement
Page 5 of 6
Vanguard
Traditional IRA Account
Services 800-284-7245,
Noah T,. Ballard

Vanguard Voyager

Account activity for Vanguard funds continued
Prime Money Mkt Fund 0030-88052835041
continued Transaction Beginnning balance on
3/31/2015 Share price $1.00 Total shares owned
0.00.70 Value $0.07 Ending balance on 6/30/2015
Share price $1.00 Total shares owned 0.070
Value $0.07 Windsor Fund Investor 002288052835041 Contributions $0.00 Distributions
$0.00 Dividends $260.60 Transaction Begining
balance 3/31/2015 Share Price $21.79 Total
shares owned 1,336.429 Value $29,120.79 06/19
Income dividend . 195 Amount $260.60 Share
price 22..36 Shares Transacted 11.655 Total
shares owned 1,348.084 Ending balance on

12a
6/30/2015 Share price $21.84 Total shares owned
1,348.084 Value $29,442.15
Windsor II Fund Inv 0073-88052835041
Contributions $0.00 Distributions!-$11,200.00 |
Dividends $132.29 Transaction Beginning
balance on 3/31/2015 Share price $37.28 Total
shares owned 518.879 Value $23,071.81 04/06
Normal distribution Federal withholding
Amount-$10,080.00 ("WifesAuto
Downpayment" was handwritten, with an arrow
pointing to it on the original submitted copy.)
Share price 37.61 Shares transacted -297.793
Total shares owned 321.096 06/19 Income
dividend .412 Amount 132.29 Share price 38.01
Shares transacted 3.480 Total shares owned
324.566 Ending balance on 6/30/2015 Share price
$37.25 Total shares owned 324.566 Value
$12,090.08 June 30, 2015, quarter to-date
statement Page 5 of 6
Please know, the original "un-recreated"
evidentiary above 1 la* 12a, was obtained from
the trial COURT Clerk's Office. Whereas, 7a10a, were obtained from the TN SUPREME
COURTS Clerk’s Office.

13a
Page 1 of 1
Office Depot
Taking Care of Business
Description ■
Office Product/Supplies
Transaction Amount $360.49 Card Number
******9204(Mastercard)
Purchase Date 02/15/2018, Store location 6647
(Lebanon, TN), Register 4, Transaction 8126,
Authorization Code 09201Z, 2nd Auth code N\A,
Card ID 0442576399
\

Customer Signature

\
\ / 'll

AJ

/

! :

/ '

U

i i\

it

/

\i
/

Purchases relating to this transaction
Item# QuantityUOM Description
629376
1 Each HP,LAPTP, 14BS1530D
484404
1 Each 2YR,LAPT,200-249.9
586422
1 Each INSTORE BACKUP & M

15a, 1
PG. 2, 4. At the time of trial, Wife was 61 yrs old,
with some college education.
Yes, she was born Feb, 29, 1956, she's a leap year
baby, we used to joke about her being under age!
Yes, I loved my Wife! I'm a college graduate via a
science degree, and more than 7,000 hrs. of
additional education. Judge, your biased,
prejudicial, dereliction, failed to ascertain, for
which you had several months to ascertain,
digest, retain!
PG. 2, 5. After hearing the testimony of the
parties and observing them testifying, the Court
finds that Wife's credibility is excellent.
R: The Court- dishonorable Judge, Lie-yer Lisa
Webb, and Co-conspirator Abby Rubenfeld.
a. Judge. Your: Ask Momma what she wants,
which you exclaimed during the trial several
times! (Referring to my impending ex-wife),
coupled, with your very cruel, biased, distorted,
derelict, dishonorable, exaggerated, grossly
erroneous, injustice, prejudicial, neglectful,
reprehensible, sordid, "Judgment", inequities; is
most certainly demanding, and warranting
Justice!
b. The accurate, appropriate, equitable, fair,
honest, unbiased, unprejudiced, and Just, $77K,
to me diligently calculated by an arbitrator,
mediator - Haley E. Medley, (615) 452-8030, that
both my wife, and I paid $500. each for; at
Walwyn Law 1994 Gallatin Pike N #100,
Madison, TN 37115; June 23, 2017, at 10:00AM.
haleymedley@phinipsandingrum.com. Which, in
my presence, was simultaneously agreed upon by

3
her, even late at night, it didn't matter, my wife
was 1st and foremost!
f. The only exception was going to some of the
morning treatments she had, as she asked me
not go with her, that her mother and sister was
visiting her there, and she didn't want me to be
worried, or pacing around!
g. There was other things that I could do to help
her, clean the house, pickup groceries, take care
of our business needs! All of this was stated to
the deaf Judge, whom sat a few feet to the left of
me, as well as, my Lie-yer Lisa Webb, and Abby
Rubenfeld, whom presumably coherently
listened!
h. My wife had a protein that "fed" cancer cells,
the medication that I made sure she took
religiously and the treatments destroyed the
protein, which made her likeliness of further
cancer implications, very, very, low! Yes, I Loved
Her! Excerpted: 39. via the Divorce Response,
that was in its entirety, mailed to the Judge 1121-17, after my Lie-yer Lisa Webb, had given it
to the Judge via the documentation provided
during the trial as I had instructed her too prior
to the trial! 39. During her Cancer recovery, I've
encouraged her, laughed with her, cried with
her, and stayed always by her side, to very
generously consol her! In fact, I have
"worshipped" the ground that she walks on
hopefully, with care not to be too excessive with
my attention. We have prayed, her "lying" in my
arms each night, while we kissed and hugged.
And, I said the prayers, to thank the Lord for the

4
blessings we have, for the Lord to protect us
from harm's way, and for our health and
happiness to improve as time goes by. To help us
become closer to family and friends, for them to
know we love them, and for them to love us as
well!
i. I've grocery shopped 95% of the time, changed
the kitty litter, washed cloths, done all aspects of
cleaning the house, laundry, vacuuming, with, or
without Vicky helping. Hand washed Vicky's
delicate clothing, and hung them to dry!
j. I've completely insulated the "basement", and
attic, to TVA's latest recommendations, which
will save us $$$$, heat and cooling. Completed
home repairs - toilets, caulked the bathroom, and
any other repairs that have been needed.
PG. 2, 7. As stipulated by both parties, Wife
owned the real property at which the parties
resided during the marriage and prior to the
marriage beginning. I Stipulated- We lived
together, and shared all expenses and payments
including the home, for which we had discussed
as being paid off, sold and a townhouse or
condominium would be purchased for us to retire
in. All of this was stated to the deaf Judge, whom
sat a few feet to the left of me, as well as, My
Lie yer Lisa Webb, and Abby Rubenfeld, whom
presumably coherently listened! Please see-1,-2
PG. 2, 5. a., b., c., d.
PG. 2, 8. At the time of the marriage, Wife was
working full time, and during the course of the
marriage, she had three employers total (two full
time and one part time job at Belmont

5
University, which part time job she stills holds).
My wife clearly stated to the deaf Judge that she
had four employers. I helped her with those
employees, she supervised, coaching her on best
practices, and encouraging her to encourage
them, always being positive and supportive. My
wife worked at Belmont University, 1 day each
vr. teaching a hospitality class! I helped her
collect treats for the class, and picked up some of
presentation materials. I would listen to her
presentation, and offer advice, as she asked me
to do; always encouraging her! On occasion I
would take her to, and pick her up from that
class, depending upon what we had planned to
do after words! Yes, I Loved My Wife!
Please see: 1,-2, PG. 2, 5. a., b., c.
PG. 2, 9. During the marriage, and despite the
cancer issues, Wife earned approximately
$750,000.00 from her employment efforts.
Yes, my wife made more pay than I. However,
my contributions made our contributions most
certainly equal, please see Yes, I Loved My Wife!
The cancer was known and successfully treated
only in the last 1.5 yrs of our marriage!
PG. 2, 10. At trial, Husband was 68 yrs old, with
considerable computer technology training, much
of which was acquired and paid for during this
marriage.
No. the conjecture above, is erroneous and
misleading! I have been acquiring, attending,
teaching, IT related courses, over many .yrs, the
1st of which was in Dec 1971, ATU Computers,
USMC, Camp Pendleton, CA. A very small

6
amount of money was paid for during our
marriage by us, although it's still tax deductable,
probably less than $200. Government, programs,
paid for the bulk of the training, and my finances
before we were married!
PG. 2,11. After hearing the testimony of the
parties and observing them testifying, the court
finds that Husband's credibility is poor.
Please see: 1,-2, PG. 2, 5. a., b., c., d.
PG. 3,12. Husband enjoys excellent health; he
came into this marriage with no job, one car-load
of clothing, no furniture or furnishings and
retirement accounts which not even he can
explain.
For numerous, yrs I've tried to maintain my
health, and encouraged my wife too as well, as
we have walked together, bicycle rode, worked
out at the gym together, swam together, etc. We
even walked 25 mi. over several days each, on
three of our vacations to Marathon Key FL,
Washington DC, and Niagara Falls. I had moved
from CA to TN, and stayed with my sister, while
vacationing, and spending lost time, with family
members, helping my mother whom had severe
health problems, helping my brother finance
some very important training needs that he had,
I gave him $1,100.00; attending IT training
classes, and seeking employment via job
interviews! I was taking things a day at a time,
and enjoying every minute, of a very long
overdue family permanent reunion - with my
Daughter, Son, Brother, Sister, Mother, Step
Father, and Nephew! My Mother passed away

8
Hyundai Veloster, (via my IRA withdrawal) with
Vicky's grateful encouragement, exactly like a
caring, loving, husband should do! Yes, I Loved
My Wife! IRA withdrawal, on 11a. $10.080.00
PG. 3, 13. During the marriage, husband earned
approximately $325,000.00, and also began
drawing approximately $2,200.00 per month in
Social Security benefits beginning August 2015.
Yes, $2,189.00
PG. 3, 14. Husband earned only $15,586.00
during the last year of the marriage, and the
Court specifically finds that he was grossly and
intentionally underemployed,
a. No, I was, intentionally, attending to my wife's
cancer issue which was 1st and for most, and a
very painful, stressful, experience for the both of
us!
Please see: 2,-4, PG. 2, 6., a., b., c., d., e., f., g., h.,
i-» jb. All of this was stated aloud to the deaf Judge,
whom sat a few feet to the left of me, as well as,
My Lie-yer Lisa Webb, and Abby Rubenfeld,
whom presumably coherently listened!
c. Also, I diligently, studiously prepared for a
job enhancement and achievement objective of a
CCNA.
d. Additional Mandatory, Unavoidable, Trial
Activities:
e. I spent more than 100 hrs. Painstakingly
collecting and providing 100%, of the requested
information to my Lie-yer Lisa Webb well before
the trial, some of which as far as four or five
months before the trial!

9
f. Including going to Regions Bank, 3191
Lebanon Pike, Nashville, TN 37214, where our
joint acct. was previously held, several times to
pick up acct. copies and deliver them to
LisaVJenna at Walwyn Law, 1994 Gallatin Pike
N #100, Madison, TN 37115.
And, Wells Fargo, 4740 Lebanon Pike, Nashville,
TN 37076, and Wells Fargo, 1712 West End Ave,
Nashville, TN 37203, from which several trips
were required to obtain acct. copies, form the
bank manager Torry Meadows, which were also
"hand carried" to JennaXLisa, at Walwyn Law,
1994 Gallatin Pike N #100, Madison, TN 37115!
g. I had to pay $250 for the West End copies.
Including several emails to BrookeXLisa of
requested statement copies! Please see-1, PG. 2,
5., a., and 14*15, PG. 3, 18. a., b., c.
PG. 3, 15. From and after the date of separation,
Husband contributed nothing to the marital
estate, but nonetheless, Husband testified at
trial that he was currently earning more than he
had ever earned in his life, that he was able to
pick and choose what jobs he took, that he was
turning down jobs that he did not want, and that
his future earning capacity was excellent,
a. I was advised by Megan Williams, and
Lie~ver Lisa Webb, that it's unnecessary to
further contribute to mv wife the marital estate.
as we are separated and she is divorcing me!
Also, the mercilessly overwhelming bv- Megan
Williams * Cordell & Cordell extorting
$6.600.00.followed bv Lie ver. Lisa Webb’s
continued greed, and extortion!

10
TN Supreme Court, TBPR, Submittal,- "Lie-yer
Lisa Webb, On the day that we first met at your
office, we sat facing each other, I had explained
that I had been coerced and extorted by Megan
Williams of Cordell and Cordell, for $6,600.00,
and that there was no end in sight, every few
weeks she would ask for $2,000.00 to $2,500.00.
And, that I had been recommended to you by
Alice Mcloud, and her friend Allison (my
daughter), whom had been extorted by Cordell
and Cordell for $20K, and had been abandoned
from Cordell and Cordell when they couldn't pay
any more. I had mentioned, that I had told
Megan Williams that, I wanted to know how
much that costs of the divorce would be, as I
feared possible bankruptcy and ending up
penniless because of the unbridled incessant
greed. Megan had said-1 have seen it go as high
as $100,000.00 to $200,000.00 dollars, with no
regard to my concerns, fears, whatsoever! After I
discontinued, Megan's deceitful, failure to
initially disclose the: "I have seen it go as high as
$100,000.00 to $200,000.00 dollars", I requested
that my funds $6,600.00 be returned to me.
Which, prompted Megan's clone, Mathew Bowen
to aggravate, coerce, and harass, me further, via
several USPS mailings demanding, yet more
$$$. "You said: that it was well known that
Cordell & Cordell would bring their clients to
about $20,000.00 and leave, abandon them, as
they couldn't afford to pay more. Also, you
assured me that you would never do anything
like that! You said: that we were half wav

11
through the divorce process, and that vour fees.
at most would be $3.000.00 to $5.000.00.. you
couldn't see it being any more than that! After,
$20K, of Your coerced, insatiable greed, and
merciless, extortion, later, the stench of Your
incessant, unbridled, unrelenting, greed is
nauseatingly overwhelming!"
b. After which, my Lie-yer Lisa Webb,
attempted, but, conceded and failed to extort an
additional 8K from me, via TN Supreme Court,
TBPR, Communications!
Yes, my contract job with FS24\7, pays more per
job than mostly I've earned previously. I can and
will turn down jobs, that are not appropriate, or
convenient, or uncomfortable, for me, as that is
the purpose intent, and nature of the FS24\7
offering! I Truly believe that my earning
potential is excellent, and will improve over
time, as my dedication, CCNA completion, and
skill set proportionately improves!
I truly regret having haplessly spent and
"wasted" money, in the form of "court" costs, as
The court: dishonorable you, Judge, Lie-yer Lisa
Webb, and Lie-yer and Co-conspirator Abby
Rubenfeld.
PG. 3, 16. Husband also testified the he"...earned
$700.00-$900.00 just the other day for six hours
"work", and he also continues to draw his Social
Security retirement benefits.
Yes, that one instance, may be true, However, it
wasn't an invitation to exploit, or parasite me!
that particular income option may not avail itself
for months or yrs before I may or may not

12
experience it again! Please see: 1,-2, PG. 2, 5.,
R:,a., d. and 9, 11, PG. 3, 15., b.
PG. 3, 17. Wife testified that Husband was a
compulsive spender| during the marriage, one
example given was Husband's insistence in
buying a riding lawn mower to use on his Wife's
one quarter acre lot. a. Our Home: was a one
acre lot! Ref Correct Home Facts:, via link *
https ://www zillow.com/homedetails/4001*
Wellington-Ct-Old-Hickory-TN37138/80363222_zpid/?fullpage=true. b. My clear
vocal explanation given to the deaf "Judge"
during the court: I bought a riding lawn mower,
as I had never owned a riding mower in my
entire life. I had discussed it with my wife on
several occasions, starting about a year earlier.
It kept me from being in the sometimes 100°
heat too long, as it cut down the time by 1.5 hrs.
which minimized my exposure, including lawn
trimming 1.5 to 2 hrs, blowing the cut grass
from the sidewalk, driveway and the street, in
the same hot sun. At 68 yrs old, I was certain
that I deserved that very significant amount
of relief! The riding mower, was used on our
property, our home, only! (Previously,
occasionally, I would feel dizzy, and light headed.
due to the heat, which Prompted, the riding
mower Purchase). The mower cost about
$550.00, bought at Tractor Supply, very near our
home, which I shopped around for very carefully,
prior to purchasing. The averaged costs for
weekly lawn care is $49.30, as shown below.
(Please know the current prices have been

13
typical for many yrs, as I owned property on
Dowdy Drive, Antioch, TN). And reveal, that
my lawn services, as Husband, and 1\2 of the
marriage, for approx. 12.4 jo's, was very cost
efficient, and well deserving, worth my peace of
mind, my physical well being, and health, free of
excessive heat exposure! which eliminated the
need for lawn services. Over a period of 12.4 yrs,
saving, obviating $13.449.04. details- Lawn
mowing months in TN- From the middle of April
to the last of Sept., approx. 5 months., and 2wks
= 22 wks, at $49.30 (the AVG weekly, lawn care
costs, from 3 Lawn Services, shown below), for
4001 Wellington Court, Old Hickory, TN 37138.
Per wk = 22wks X $49.30 = $1,084.60 X 12.4yrs
= $13.449.04. which is what I\We saved by
Me\I, doing the lawn instead of paying for a
service! It most certainly, was a best practice,
contentious, cost efficient, dedicated, well
earned, well deserved, and very sincere,
unselfish, consideration for my comfort and
health (avoiding heat exhaustion)! LAWN
SERVICES^ Gregg White Lawn Services, 1-26*
18, 615-587-0747, costs for 4001 Wellington,
Court Old Hickory, TN 37138. $140.\mo.
$140.\4 Wks = $35. Wk.
Reliable Mowing & Lawn, Estimate, on 6a,
Nashville Landscaping, Lawn Care Service in
Nashville, TN, 4434 Juneau Dr, Hermitage, TN
37076, (615) 210-5139, costs for 4001 Wellington
Court, Old Hickory, TN 37138. $60.00 WK. In
fact, the Judges "Repeated" Perpetual
Perpetrating Lie: Compulsive Spender Is

14
Abundantly Evident in the following, (excerpted
from the divorce response, as described below),
as I mailed the complete version to you (Judge)
separately, on 11-21-17, and it was given to you
during the trial, and prior to the trial, via Lie-ye r
Lisa Webb.' for which you had several months to
ascertain, digest, retain! Including the Bold
below. 36. Vicky 20.1 helped Vicky shop for
clothing, as she appreciated my advise as to
what looked good on her, and I would surprise
Vicky with new clothing pajamas, night gowns,
socks, blouses, knowing what she liked, by
placing them on the far right of her clothing
rack, so she could find them after showering. I
picked my clothing from out of season Macy's,
and Goodwill, to allow saved money to be
allowed for paying off our home and our cars, so
that we could five comfortably when we retired,
and until the Lord called us home, as we had
discussed several times during our marriage.
Clearance became my "brand" of choice as a_____
result. 36. Vicky is very Careless, and Wasteful,
for more than three yrs she has chosen to have
her dry cleaning done at Joy Cleaners, on her
way to work, instead of having it done free by
Gaylord a very short distance from the front door
of her office location. It would save us $800.00
per year, or Approx. $2,400.00 thus far!________
PG. 3, 18. Husband handled his own retirement
accounts, and made "sometimes large"
withdrawals therefrom! he withdrew a still
unidentified amount from his retirement
account(s), such that the parties owed $7,800.00

15
on their joint federal tax return for the year.
a. The money was carefully, thoroughly
discussed and agreed upon with my wife, and
was entirely deposited into our joint checking
acct, and always used for our best interests,
debts ~ 10K paid on her Hyundai Veloster. via
mv IRA; emergency needs, recreation, vacations.
travel, solely, at our discretion! $10,080.00, on
11a, I Loved My Wife!
b. I did the taxes, as I had for many vrs. using
H&R Block, or Turbo Tax, filing services, which
were accurate, honest, and accepted bv the IRS!
c. I generously, lovingly, unhesitatingly,
unselfishly, voluntarily, dedicated my retirement
$$$$, which 96% or 97% more was earned before
our marriage. And, wholeheartedly did with all
of my resources, as we deemed necessary, from
the time we met until the time we separated!
Yes, I Loved My Wife! Please see* 1-2, PG. 2, 5.,
d. and 6-8, PG. 3, 12. a., b., c., d.
PG. 3, 19. Husband spent much time in the
marriage development of an invention he called
Winnie Wipes his investment, time and effort,
and money did not produce any results.
a. I spent 3*4 days, on the Winnie Wipes, of the
12 yrs. and 4 Mon. that my wife and I were
together.
b. Most of the conception time was done prior to
our marriage over a period of several yrs solely
as a hobby, as leisure, recreational, time availed.
1 yr.= 365days x 12yrs. = 4,380 Days + 4mon, (30
days, per month) = 120 Days + 4,380 Days =
4,500Days. 1.75 days (the AVG of 3-4 Days) =

16
. .01%, and far less than the time I dedicated to
my wife and the success of our marriage as
disclosed below, (Divorce Response) which was
sent to you, Judge in its entirety on 11*21-17.
c. The patent was discontinued more than 5 vrs
ago!
d. The fee for the uncompleted "patent" was
$415.00. which, is also negligibly and far, far,
less than .05% of our disposable income we
earned! My income alone was more than $325K,
plus the Social Security I earned at approx.
$2,189.00\month. e. PS Had the visualized
Winnie Wipes $20,000,000.00 materialized,
it would have been most certainly shared
with my wife- Please See 14*15, PG. 3, 18., c.
e. As, we shared our joint bank Accts.
Everything I had was mv wife's as well! Yes, I
Loved My Wife!
PG. 3, 20. During the Husbands lengthy battle
with the United States Patent Office in seeking a
patent for his invention, he valued this invention
at $20,000,000.00.
A biased, prejudicial, grossly erroneous,
distorted conjecture, emended via 15,* 16, PG. 3,
19., and Evidentiary: a., b., C., d., e.
PG. 4, 21. The Court believes that Trial Exhibit
2, a long letter from Husband to the Patent
Office and copied to several public officials,
provides little assistance in valuing this marital
asset, but is revealing in other ways. Please see:
15*16, PG. 3, 19.,
b., c., d., e., and 1,-2 PG. 2,
5., R:, a., b., c., d.

17
PG. 4, 22. Although Wife Proposed that the value
of this asset is the $20,000,000.00 claimed by
Husband, the Court finds that any value was
short-lived, and is now zero.
N\A
PG. 4, 23. Husband insists that he is entitled to
some portion of the equity in the Wife's pre­
marital real estate, with the pre-marriage and
current values stipulated by the partied in trial
exhibit 1.
Please see^ 1,*2, PG. 2, 5. a., b., c., d.
PG. 4, 24. Husband's testimony about his
contributions to the increase in the value of the
separate real property of Wife is unconvincing,
at best- he testified that he placed corrugated
plastic drain pipes on the down spouts, laid out
on the top of the ground, to drain the water away
from the house, and spent "30 to 40" hours doing
that one project*which is simply not possible.
And, 1st having two "drain Specialists" to come
to our home and advise using a sump pump (very
expensive $1,700.00) to drain away the
extraneous buildup of water in the basement
crawl space, that occurred during heavy rains,
and would over time cause damage to the
foundation where the water typically
accumulated. Which, every four yrs, or so would
require digging the pump up to check its
condition, another expense of $400. to $500. And,
going to Home Depot and Lowes to discuss, and
obtain the required plastic drain pipes. And, by
using a heavy ladder, which required moving
from the garage, to several different positions,

18
enabling the removal of the plastic inserts
previously placed and sealed via "flex seal" above
the downspouts, and removing debris that the
drains had collected. And, carefully attaching,
the corrugated plastic drain pipes, and
positioning them allow the optimum water
drainage route; followed by spray painting them
green, closely matching the adjacent grass,
which, required three spraying path efforts,
throughout the length of each of the corrugated
plastic drain pipes, allowing it to dry each time.
And, handling the dry portion allowing the
remaining portions to be painted, allowing the
corrugated plastic drain pipes, to be well
"hidden" in the grass!
PG. 4, 25. Husband's credibility regarding his
contributions involving the real property is very
poor.
a. You! Judge, were given the following
excerpted information via the Divorce Response,
during the trial, via Lieyer Lisa Webb, and I
mailed it to you in its entirety, on 11-21-17!
b. Improvements c. 32. below, and pgs 19-25 You,
Judge, had several months to ascertain, digest,
retain!
c. 32. Sledge Hammer Yard Work -1 bought a
sledge hammer at a local antique shop, and
almost daily, I would hammer the large rock (20
to 30 times, careful not to over extend myself)
that protruded upward through the grass, and
made the mowing of the grass via the "riding"
mower not scraping the cutting blade. I was able
to after several months, reduce the rock (small

19
fragments at a time).
d. 34. Our neighbors Mickie, and Wendy, Angela,
615-585-3879. 1931 Duneden, Old Hickory,TN
37138, Tel. 615-585- 1931; Darrel and Judy,
McKissack, 615-758-3133. 615-210-4390. 1924
Duneden, Old Hickory, TN 37138, Christi, and
AJ (recently moved in), 4002 Wellington Court,
Old Hickory, TN 37138, can attest to the fact
that I mowed, mulched, and trimmed weeds (on
rare occasion Vicky would help pull weeds), for
more than 11 yrs.
e. 44. Precarious, Danger - A tree next to our
bedroom stood 4 to 5 times higher than the
house roof 120' to 150' high, and leaned toward
the top of the house above our bedroom.
Branches kept falling from the tree and
damaging the patio deck; on one occasion two or
three of the large wide deck "railing" boards had
to be replaced due to damage from a very large
fallen branch. I replaced the damaged boards,
but the fear of damage to that part of the house,
and injury or death, as we slept in that bedroom,
and a storm, or powerful winds could "push" the
tree to topple, on us, and injure or kill us while
we slept.
I arranged for a tree removal team (out of 3 or
more candidates) to chop the tree down, cut it up
into 15 or 20 pieces (that weighed up to 2001bs.
or so each), to load them into a truck, and haul
them away. Included grinding away the roots
also. This occurred at a time when the economy
was "bad', and required getting the best service,
for the best reasonable price $500.00.

20

f. 45. Reflective Street Address, someone in our
neighborhood had a reflective paint that listed
the street address - 4001, that could be seen at
night ■ for FedEx, UPS, parcel deliveries etc. It
cost $10.00, and ours was very well done.
g. 46.1 annually re-mulched the lawn islands,
removed mushrooms from the lawn, (The wife
said they looked like penises), and treated the
lawn for moles, as necessary. This included,
scheduling the lawn services, to treat the lawn, 4
to 5 times annually, and to rent an aerator, from
Home Depot to aerate, the lawn every three or 4
yrs, (a very strenuous, exhausting job).
h. 47. A new HD home roof.
i. *2. It has a new foundation repair\reenforcement, $6,000.00
j. *3. It has all new energy efficient windows
installed by Window World, $5,856.00
k. 4. It has insulation repair, reinforcement to
TVA standards, I installed it making the home
far more energy efficient, decreasing
heating\cooling bills, costs $400.00!_______
l. *5. It has a new energy efficient Trane air
conditioning\heating unit, that I paid for
$5,600.00. via my 401k\IRA.___________ _
m. 7. New carpeting and wooden flooring
throughout the house, Vicky and I chose the
colors, and I found a wooden floor installer, after
talking to several of my work colleagues, whom
came highly recommended by them as they had
their wooden floors installed by him, and his
installation price was $500.00, to $700.00 less
than competitors.

21
n. I helped with the installation by carrying the
flooring wood into the house, and installing all
of the trim throughout all of the flooring areas.
o. 8. My unemployment that supported our
home, and living expenses while we both were
unemployed simultaneously for several mos.
p. 9. A defective water heater $900.00
including fixtures, that had to be replaced, and
installed by me and two others - Ken Peterman,
Marvin Butler.
q. 13.1 built a loft, by extending the 5/8" ply
wood in the attic by about five ft. which allowed
us to store more Christmas, Halloween,
Thanksgiving, decorations, and suit cases.
r. 14.1 decorated our roof with Christmas lights,
every year, except those when we were out of
town? it was a very precarious, and strenuous
occasion as I had to climb a ladder up to 30' high,
and carefully, frightfully, often shakingly, attach
the lights from the back of the house around to
the front of the roof edge. But was well worth the
effort, because it made Vicky smile!
Also, I decorated the lawn for Thanksgiving, and
Halloween for the same reason!
s. 15. One day we were at a yard sale, and I
walked around the side of one of the paintings,
and noticed a very unusual painting, that I had
never seen before. I motioned for Vicky to come
and take a look, she did and exclaimed "quietly"
that she had tried to buy the painting several yrs
earlier, but that it was beautiful and based upon
a movie and was too expensive costing several
hundred dollars. I asked the lady selling the

22
painting how much I could buy it for, she said
$25.00. Of course, I bought it and hung it up on
the dining room wall; it made Vicky smile! Yes, I
loved My Wife
t. 21.1 did all the maintenance around the house
except for some of the painting, which I
negotiated a very reasonable price, that we could
easily afford.
u. 22.1 replaced light bulbs throughout the
house and garage using the energy efficient
bulbs that had been recommended by TVA, and
in some case had been given to us by TVA; this
included collecting the rebates information for
tax write offs, via TVA, and the IRS, and
completing the taxes accordingly.
v. 23.1 climbed a ladder and dusted the ceiling
fans, and also replaced the ceiling fan in the
bonus room and living room.
w. 24.1 placed a bar rack across the space above
the clothing washer and dryer, to make hanging
the cloths on coat hangers, after drying much
easier to carry from the "pantry" area to the bed
rooms.
x. I affixed hooks outside the door from the
garage, to hang brooms, dust pans, etc. for easy
usage.
y. I organized the garage with racks, and peg
boards for easy tool access - mowing the yard,
hanging pictures, insulating the door jams, etc.
via a ladder, I removed and dusted the artificial
plants that were located above the dining area.
z. 25.1 removed the coating on the drive way,
and pressure washed it, then filled the cracks

23

with adhesive sand, allowed it to settle, then
recoated with sealant every two or three yrs.
a.a. I had the worn and damaged mailbox
replaced with a black rustproof, life time
warranted mailbox that has held up tarnish free
for more than 4 yrs.
b.b. 26.1 pressure washed the patio deck (a very
strenuous and very exhausting activity), and
re-coated it with weather proof paint from Home
Depot, because it made Vicky happy, and it was
another of many, many, many, dedications
toward our comfort and happiness.
c.c. 27.1 picked up the mail almost every evening
and sorted it large to small, and placed it on
the kitchen countertop, for easy access for Vicky
to pay the bills.
d.d. I arranged for commercial trash pick-up,
as Vicky had been dumping her trash in nearby
apartment complex dumpster for many yrs
prior, going to and from work!
e.e. I took the trash out of the house and placed
it into the Green "rolling" container, and
replaced the liner 95% of the time; and every
Thursday I would roll out the large green trash
container, for curb pickup, except on rare
occasion when I would forget, and Vicky would
roll it out.
f.f. 28.1 selected a handy man form 3 choices,
that replaced several hail damaged housing side
panels.
g.g. I repaired settling cracks, in the brick
mortar, on the front of the house, per the
recommendations of home depot.

24
h.h. I plunged the two eommodes, on the very
occasional times they were "overloaded."
i.i. 29.1 re-enforced the patio deck with brackets
that were placed in weak, or very poorly
supported joints, to increase the durability,
strength, and longevity.
j.j. 30.1 painted the front yard, brown rusted
water meter "canister' water proof purple, as it
was Vicky's favorite color.
k.k. 31.1 placed insulation "caps" over the
outside water spickets, closed the crawl space
vents as late fall arrived, removed the "caps",
opened the vents, as spring approached; to help
keep the house warm during the winter, and
cool during the summer.
PG. 4, 26. There's no proof in the record that the
other projects on the Wife's separate property
were anything more than routine maintenance
that a person would perform in any residence
they occupied. Your lackadaisical "Judgment",
as Clarified in responses^ PG. 4, 27. The court
finds that the sole and exclusive reason for the
increase in value of Wife's separate property
located at 4001 Wellington Court, Old Hickory,
TN Wilson County, Tennessee 37138, comes
from fair market conditions, and not from any
direct or indirect contributions by Husband.
Both my Wife and I lived at 4001 Wellington
Court, Old Hickory, TN 37138,; Wilson County,
TN for 12 yrs and 4 months, Sharing All
Expenses, Including The House Payments The
Several Maintenance, and Improvements.
Above and Beyond Maintenance, rendered our

25
shared property, at the top of the market value,
as described below, bold prefaced- You, Judge,
Had Several Months to
Ascertain\Digest\Retain! Please See: 18*24, PG.
4, 25., a., b., c., d., e., f., g., h., j., k., L, m., n., o.,
p., a.a., b.b., g.g., i.i., j.j., k.k.
a. 34. Lastly, when I purchased the Air\Heating
unit, as previously described 18, PG. 4, 25., 20JT]
after it was installed, I carefully cleaned and
Flex Sealed, the Interfaces from the Device to
the Adjacent Walls, and Concrete Foundation, so
that water intrusion, corrosion, debris, etc.
wouldn't accumulate, and gradually damage, or
degrade the efficiency of the Newly installed
unit.
PG. 4, 28. Wife's entire retirement portfolio was
earned during the term of this marriage and is
marital property.
Yes. Yes. Yes. Yes. Agreed! Please see: 1,-2, PG.
2, 5., a., b., c.
PG. 5, 29. Husband had some pre-marriage
accounts, but he failed and refused to disclose all
of them in discovery, and also failed or refused to
provide complete documentation of the history of
retirement accounts. Please see: 6,-8, PG. 3, 12.,
a., b., c., d.
PG. 5, 30. At trial, and even on re-direct
examination, he continued to deny knowledge of
the history or value of his accounts, past or
present. Please see: 6,-8, PG. 3, 12. a., b., c., d.
and 1,-2, PG. 2, 5., a., b., c.
PG. 5, 31. The Court finds that at all times
material to this litigation. Husband had the free

26
time and ability to prepare and submit the
requested and required information regarding
his retirement accounts, but for whatever
reason, and presumably as a litigation tactic, he
failed to do so. Please see: 1,-2, PG. 2, 5., R:, a.,
b., c., d. and 6,-8, PG. 3, 12. a., b., c., d. and 8,-9,
PG. 3, 14., a., b., c., d., e., f., g.
PG. 5, 32. A common response by Husband at
trial when asked about assets or values was "I
don't have any paperwork with me", Husband
woefully failed to carry his burden in the regard.
Please see: 1,-2, PG. 2, 5., a., b., c. d. and 6,-8,
PG. 3, 12. a., b., c., d.
PG. 5, 33. While each party submitted pre-trial
memorandums, neither complied with Rule 15 of
the Local Rules of Court, and there was no
specific exhibit of property, values, or proposed
distributions. Lie-yer Lisa Webb's flagrant
derelict is woefully, evident! You! Judge, were
given the following excerpted information via my
Divorce Response, during the trial, via Lie-yer
Lisa Webb, and I mailed it to you in its entirety,
on 11*2117! Please see: 12, PG. 3, 17, a.
Payments to: Wells Fargo Bank, Oakwood
Commons, 4740 Lebanon Rd, Hermitage, TN
37076, Ph:(615) 871-2040, Monthly Payment:
$1,129.28, Initial Financing at: Wells Fargo
Bank, 2701 Wells Fargo Way, Minneapolis, MN
55467. Ph: 1-800-443-3498, Loan 0105064604,
Acct: 5238667546. Loan Amount: $126,000.00,
ID Code: 229503640, Lender case: 010506404,
Pay Months: 119165.00, Interest Rate: 4.5%,
Estimated Balance: $70K, Estimated Values:

27
10/12/16, $249K, Trulia Est. 10/12/16 $247,637
Zillow Est. Please know that the 4001 Property
is at the top of the market invalue. Also, paid
from my 4Q1KAIRA was another $30K used for
an east Caribbean cruise, a west Caribbean
cruise, and several other needs, as the occasions
arouse, all with Vicky's expressed appreciation.
Please see-18, PG. 4, 25., 20,-21, h., i., j., k.,[I],
m., n., o., p., q., 24, i.i.
M2018-01217-COA-R3-CV, Trial Exhibits
Retrieval 8, PG. 3,14. d., e., 9, f., g., 7a-12a,
excerpts, and preliminary preparation. Copies of
documents given to John T Gwin during trial,
2016DV97.
Email recreations: Noah Ballard Mon, Aug 13,
1-14 PM (3 days ago)
Hi Amy, Please advise me on the best way to
obtain copies of the documents given to John T
Gwin, during the trial. PS I can make the copies
as may be convenient Amy Conatser Mon, Aug 13
3:26 PM (3 days ago) to me
Any documents received by the Court during the
trial would have been made trial exhibits, and
those are kept in the Clerk’s office. You may
want to call ahead so they can have the file and
exhibits already pulled for you, but you are
welcome to review/copy them at the Clerk’s
office. If you don’t have the Clerk’s telephone
number handy, it’s (615) 444-2042. Amy S.
Conatser, Assistant to Judge John Gwin
General Sessions Court, Division III
134 South College Street, Room 104
Lebanon, Tennessee 37087 ref: Pg. 1/2

28

From: Noah Ballard
[mailto:ballard.noah@gmail.com]
Sent: Monday, August 13, 2018 L15 PM
To: Amy Conatser
<Amv.Conatser@wilsoncountvtn.gov>; Amy
Conatser <Amv. Conatser@wilsoncountvtn. gov>
Subject: Copies of Documents Given to John T
Gwin during trial, NO. 2016DV97
Hi Amy,
Please advise me on the best way to obtain
copies of the documents given to John T Gwin,
during the trail.
PS I can make the copies as may be convenient.
NO. 2016DV97
ref: Pg. 2/2
Pro Se Noah T Ballard
After receiving the very welcomed email
response above, from Amy, On 8-16-18,1 called
(615) 444-2042, and spoke to Court Clerk,
Ashley. Ashley, said it would be no problem
getting the copies at 50. cents each. I went to the
General Sessions Court, Division III, 134 South
College St., Lebanon, TN 37087, clerk's office
and met with Ashley, whom gave me the entirety
of the very large volumes of exhibits. Later, as I
gave Clerk, Megan Swank, the Vanguard acct,
14 pgs., taken from Exhibit 9, which were given
to the clerk, via Petition to Review, Court of
Appeals, Filed 8-16-18: After, Megan made the
copies, she mentioned that all of the Exhibits,
had already been sent to the Appeals Court, as it
was typical practice. Please see: 7a,-12a.
Thus, Please know that the referenced copied
pgs. above confirmed what I stipulated in the

29
FINAL DECREE OF DIVORCE, responses as
listed, below, scrupulously compared, verbatim,
with the submitted copied 7a,-12a, Attest, and
are Evidentiary to the Accuracy, Integrity, and
Trustworthiness, I've Judiciously and Reliably
Provided: Please see: 6,-8, PG. 3, 12., a., b., c., d.;
14-15, PG. 3, 18., a., b., c.; 25-26, PG. 5, 29.; PG.
5, 30.; PG. 5, 31.; PG. 5, 32, and the responses
thereafter.
I didn't ask for any other copies to be made, as
the entirety of Exhibit 5, (about 5" thick), which
I had previously collected, and provided as
described below, and confirmed by: Please see:
8,- 9, PG. 3,14. c., d., e., f., g.
Please know, that the hand written-* Exhibit 9 re:
my Wife's auto down payment, on 11a, were
submitted 8-16-18, to the TN Supreme Court
Clerk, at 401 7th Ave. North, Nashville, TN
37219-1407, as initially provided by me, Noah T,
Ballard. As, the entirety of Exhibit 5, and
Vanguard, Exhibit 9, was initially provided by
me also.
Please know that deceptively, reportedly, the
divorce trial transcripts were destroyed,
inaccessible by Court Reporter, Susan Martin's
non-functional laptop hard drive as described in
emails shown below. Lie-yer Lisa Webb's Court
Reporter, Susan Martin (615) 969-5113.
Although, I'm an IT guy, and have previously
successfully recovered "lost" data from
PCsXHDD (Hard Disk Drives), and I freely,
volunteered to attempt dataXtranscript recovery
from Susan's PCXLaptop.

30
from: Susan Martin
<smartincourtreporter@yahoo. com>
to: Noah Ballard
date: Apr 3, 2018,12:31PM
to: Noah
Ballard<ballard.noah@gmail.com
subject: Re: Secure Data Recovery
Case No. 146129 / Unsuccessful
Recovery
mailed- yahoo.com by: signed- yahoo.com
by:
They took the hard drive out and tried to
retrieve the data and it failed. It was via what
looked like a usb that connected to another
computer. They didn’t do any extensive recovery
like Secure Data,
from: Noah Ballard
<ballard.noah@gmail.com>
date: Apr 3, 2018, 2:03 PM
subject: Re: Secure Data Recovery Case No.
146129 / Unsuccessful Recovery
mailed- gmail.com
by: Important according to Google
magic.
Who are they?

31
Can you please email me their bill, invoice,
report, services provided, task description, as
that should be very carefully descriptively,
detailed, as "they" did take your money?
From^ Susan Martin
<smartincourtreporter@yahoo.com>
mailed-by: yahoo.com
signed~by: yahoo.com
It was at office max in Lebanon. No
description of what they did. I stood and
watched him.
from: Noah Ballard
cballard. noah@gmail.com>
to: Susan Martin
<smartincourtreporter@yahoo.com>,
trdiscenza@att.net
date: Apr 5, 2018, 9:18 AM
subject: Re: Secure Data Recovery
Case No. 146129 /
Unsuccessful Recovery
mailed- gmail.com by:
: Important
according to
Google magic.
It doesn’t. It just says
586422 In store
backup$69.99_______

32

Ultimately, Susan's very conflicting,
contradictory, deceptive, uncooperative, (after
several requests, she failed to provide a copy of
her receipt, as shown above on 13a, that
subsequently, I obtained via Office Max's receipt
dept, cooperation) and her untrustworthy,
responses thoroughly discouraged, and
dissuaded, me from further assistance in a
recovery pursuit; and are shown below, via a
copied Email\Attachment:
from: Noah Ballard
<ballard.noah@gmail.com>
to: trdiscenza@att.net,
Cheri Weaver <cweaver@tbpr.org>,
Lisa Webb
<LisapWebb@yahoo.com>,
Susan Martin
<smartincourtreporter@yahoo.com>,
complaints@tbpr.org
date: Apr 18, 2018, 10:44 AM
subject: Re: Secure Data Recovery Case No.
146129/Unsuccessful Recovery
gmail.com by:
mailedYesterday morning, I spoke with Office Depot,
Celine Husband, at 1-800-721-6592, receipt
department, regarding the reciept on 13a.
Celine explained to me, that thel586422]entry,
was for the $69.99 fee for "successfully" copying
the files from an "old" PC, to the new laptop

33
629376, also shown on 13a above.
Celine said, that I could get onsite confirmation
by calling to further confirm this fact. After
which, I spoke to Brittany, at 1-615-547-0071, at
the 415 S. Cumberland, Lebanon, TN 37087,
Office Max.
Please know, the Black enclosed: No Description
of what they did. I stood and watched him. And586422, above has been added to the email,
herein, by me Noah T. Ballard, which Clearly,
Undeniably, Contradicts the inclusive 586422,
receipt I obtained, from Office Depot, records
dept, shown on 13a below. Also, this text box
has been added Depicting Accuracy, Clarity,
and Honesty, as the receipt I obtained was a
duplicate, of the one Susan had been given,
which she denies, the reliable, and thorough,
details "as shown" saying it contained only: It
doesn’t. It just says 586422 In store backup
Where, the reciept,on 13a, was paid for by Susan
Martin, (via Susan's confirmation emails
previously received, specified); confirming the
586422, entry was clearly indicating a successful
copying of all files from the laptop (Susan, had
described in her previous emails, shown above),
as being defective, and an unsuccessful, failure
to copy files prevailed!, and, clearly was evident
by the receipt, and $69.99 payment). For clarity
and certainty, I asked Brittany: What if the files
couldn't be copied? She replied: Then, no money
$69.99, would be charged, we never charge for
something we cannot do!

34
PS: The INSTORE BACKUP & M, M =
Migration, as confirmed by both Celine, and
Brittany. Office Max - Celine's, and Brittany's!
vs Susan's explainations are conflicting,
contradictory, and diametrically opposing, as
shown above via Susan's previously received
email responses!
Summation!: Careless, deception, grievously,
misleading, negligence, via Lie-yer Lisa Webb's,
Court Reporter Susan Martin, is flagrantly, and
maliciously, evident! The explanations provided
by Office Max - Celine, and Brittany, are routine
and typical, Best Practices, when replacing a
new PC, with an Old PC. I'm an IT guy, with 30+
yrs experience, I've performed the copying,
migration of files from one PC to another
numerous times. It's basically an IT industry
Best Practices, and Honesty. "Standard", in that
context, I never charge anyone for unsuccessful,
copying, migration attempts!
Eye Witness: Please Know, My Sister, Barbara
A. Bowman, was present during the entire
divorce trial, and attests to all divorce trial
communications, and interactions Transcribing,
Notarized, on 14a, above.
PG. 5, 34.Wife desires to be restored to her
pre-marriage name of "Vicki Lynn Garner"
Her name is Vicky. I asked for her name to be
changed to Garner from Ballard, via an email to
Lie-yer Lisa Webb, months earlier!
Legend: Bart: Vicky's son, Becky: Vicky's sister,
whom is deaf, but can be understood by

35
expressions, lip reading, mannerisms, and
vocals.
INTEROGATORY No. 22- Please describe with
specificity any and all complaints you have with
your Wife (intended to include for each specific
incident of misconduct you allege to have been
committed by her such information as the dates
of the incident, and the identity of all persons
who witnessed and/or have knowledge of each of
the incidents which you have fisted.
It's with excruciating pain that I write the
following: l. My wife has left me over night on
three separate occasions. One Friday evening
she called me from work, saying while laughing
that she was going out of town to visit a sick
friend, then she "hung" the phone up. I was
shocked and bewildered by her call.
I tried to call her back, several times but there
was no answer. Later that evening I went to
Murfreesboro, to visit with my brother and
sister, and to briefly discuss the call with my
sister.
We began playing cards, but I was very
distressed with the call and managed to continue
playing for a while. Vicky called me while we
were playing and said that she would be back in
town the following evening and then "hung up"
the phone. After a while, I got very tired and
decided to leave and go home. During my ride
home, I thought I might go by the Lake House,
at 126 Baywatch Place, Gallatin, TN, and check,
as Ken and Anita (Vicky's Parents) were out of
town, and it would be something to do before

38

= $16K, via Megan Williams, Cordell&Cordell.
Most Emphatically, Dutifully, Judiciously,
Praying, Respectfully, Sincerely, and Trusting,
That Justice Shall Prevail! IN GOD WE TRUST!
Hapless, Pro Se, Victim, Semper Fi
l,

oah T. Ballard

